No. 19-1304
IN THE SUPREME COURT OF THE UNITED STATES
_________________
INDIAN RIVER COUNTY, FLORIDA, ET AL. PETITIONERS
v.
DEPARTMENT OF TRANSPORTATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENTS IN OPPOSITION, via e-mail and firstclass mail, postage prepaid, this 21st day of August 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8,475 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 21, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 21, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1304
INDIAN RIVER COUNTY, FLORIDA, ET AL.
DEPARTMENT OF TRANSPORTATIONM ET AL.

TRACY S. CARLIN
BRANNOCK HUMPHRIES & B ERMAN
1111 W. CASS STREET
SUITE 200
TAMPA, FL 33606
813-223-4300
TCARLIN@BHAPPEALS.COM
SHANNEN WAYNE COFFIN
STEPTOE & JOHNSON
1330 CCONNECTICUT AVE. NW
WASHINGTON, DC 20036
202-429-6255
CYNTHIA FLEMIKNG CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD,
STE. 700
ARLINGTON, VA 22201
571-329-2227
CCRAWFORD@AFPHQ.ORG
JEFFREY ALAN LAMKEN
MOLO LAMKEN LLP
THE WATERGATE
600 NEW HAMSPHIRE AVENUE, N.W.
WASHINGTON, DC 20037
202-556-2000
JLAMKEN@MOLOLAMKEN.COM
202-556-2001(Fax)

